     Department of Health and Human Services

             OFFICE OF
        INSPECTOR GENERAL




      PARTICIPANTS  RATE THE JOBS

              PROGRAM 1994





                    8m7c4
              *&#           “b%
                                  JUNE GIBBS BROWN
                                  Inspector General

                                      MARCH 1995
                                     C)EI-06-93-00560
m

                        OFFICE OF INSPECTOR GENERAL

The mission of the OffIce of Inspector General (OIG), as ma[ldatrd by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiariesserved by those programs. This
statutory mission is carried out through a nationwidenetwork of m~dits,investigations, and
inspectionsconducted by three OIG operating componenfi: Ihe OffIce of Audit Services, the
OffIce of Investigations, and the OffIce of Evaluation and Inspections. T’heOIG also informs the
Secretary of HHS of program and managementproblems and recomrmmdscourses to correct them.

                            OFFICE OF AUDIT SERVICES

The OIG’SOffIce of Audit Services (oAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing tiuditwork done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilitiesand are intendedto provide independentassessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efllciency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIG’SOffice of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigativeefforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION                    AND INSPECTIONS

The OIG’SOffIce of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections)that focus on issues of concern to the Department, the

Congress, and the pub]ic. The findings and recommendationscontained in these inspection reports

generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and

effectiveness of departmental programs, This report was prepared in the Dallas regional offtce

under the direction of Chester Slaughter, Acting Regional Inspector General. Project staff.


REGION                                                          HEADQUARTERS


Elsie Chaisson                                                  Ann O’Connor

Carol Cockrell

Carolyn Neuwirth

Sarah Taylor


For additional copies of this report, please contact the Dallas Regional OffIce at (214) 767-3310.

Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 PARTICIPANTS  RATE THE JOBS

         PROGRAM 1994





                  JUNE GIBBS BROWN
                  Inspector General

                      MARCH 1995
                     OEI-06-93-0056(J
                  EXECUTIVE                      SUMMARY

PURPOSE

This report provides information about the experiences, opinions andattitudes of Job
Opportunities and Basic Skills Training (JOBS) program participants.


BACKGROUND

The Family Support Act (P.L. 100-485) required all States to establish the Job
Opportunities and Basic Skills Training (JOBS) program to assure that needy families with
children obtain the education, training and employment that will help them avoid
long-ten-n welfare dependency.

Between April and June 1994, we completed a total of 183 face-to-face interviews with
participants who were located at eight sites: Eugene and Cottage Grove, Oregon;
Minneapolis and Chisago, Minnesota; New Orleans and Hahnville, Louisiana; and,
Wilmington and Georgetown, Delaware. Fifty-six participants had completed their
participation in the JOBS program, 74 were currently active and, at that time, 53 had
dropped out. This report reflects experiences with the JOBS program as seen from the
unique perspective of the participants themselves.

This is our second report on this subject. We conducted a similar survey between
October 1991 and February 1992 and issued a report, “Participants Rate the JOBS
Program” (OEI-06-90-00150), in September 1993. In that survey we found a majority of
the surveyed participants gave the JOBS program high ratings. They believed the
program would help them get off welfare. Nevertheless, some respondents experienced
problems and voiced complaints about insufficient information on prog~m activities and
services, not receiving needed support services, and unsatisfactory case manager services
and attitudes.

FINDINGS

MOST OF THE PARTICIPANTS SURVEYED GAVE HIGH MARKS TO THE
OVERALL ‘JOBS’ PROGRAM, ITS ACTMTIES AND SUPPORT SERVICES.

       As in our previous survey, a majority of the respondents gave the JOBS program
       high marks.

       Seventy percent graded the overall JOBS program A or B.

       Ninety-two percent said they would recommend the JOBS program to a family
       member or friend.


                                             i
       Sixty-nine percent believed the JOBS progmnl WOUMhelp them get off welfare.

       Sixty-eight percent gave high grades to their case mana,giws.

       Respondents generally gave high grades to those JOBS program activities in which
       they participated and the support services they received: orientation, assessment,
       developing an employment/education plan, education, life skills training, job skills
       (vocational/technical) training, job search, transportation, child care, transitional
       child care and medical services.


NEVERTHELESS, MANY RESPONDENTS SAID THEY DID NOT RECEIVE, OR
HAD PROBLEMS UTILIZING, NEEDED SERVICES AND EXPERIENCED WHAT
THEY VIEWED AS SERIOUS PARTICIPATION PROBLEMS.


       In the aggregate, over half of the respondents cited needed activities or support
       services which they did not receive. Services mentioned most often were
       transportation (34 percent), child care (21 percent), education (19 percent) and
       vocational/technical training (14 percent).

       Sixty-eight percent said they experienced problems which affected their
       participation in and completion of the JOBS program. Out of the 145 people who
       answered this question, 48 percent reported there were times they felt like
       dropping out of the program.

       Approximately one out of every five participants cited problems in utilizing each of
       the following key services: transportation, child care and education or training.
       Problems cited included: access barriers, services not available when needed,
       breakdown in services, transition problems, difficulty paying for services and
       inadequate quality of training/education.

       Eighty percent suggested needed improvements to achieve self-sufficiency and
       improve support services, e.g., more emphasis should be placed on education and
       training.


AGENCY COMMENTS

We reviewed our report at an exit conference with staff from the Administration For
Children and Families. They provided informal comments and requested additional
information. Some of their comments have been inco~orated in this report; some of the
additional information requested will be addressed in supplemental reports. Since this
report contains no recommendations, it is being issued directly in final.




                                             ii
                       TABLE               OF CONTENTS
                                                   —.

                                                                                                     PAGE

EXECUTIVE SUMMARY                  . . . . . . . . . . . . . . . . . . . . . .. . . .    . . . . . ..o.       i


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


  �Participants’    Ratingofthe     JOBS Program . . . . . . . . . . . . . . . . . . . . . . . ...4


  �Problems     Experienced..       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8



CONCLUSIONS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...13





A: Methodology        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


B: ProffleOfSurvey        Respondents       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1


c:   Participants’ Grades forActivities,      Services,Teachers       andCaseManagers.           . . . .C-l
                           INTRODU(YIWX!J

PURPOSE

This report provides information about the experiences, opiniom andattitudes   of Job
Opportunities and Basic Skills Training (JOBS) program Par@xmts.


BACKGROUND

The Family Support Act (P.L. 100-485) required all States to establish the Job
opportunities and Basic Skills Training (JOBS) program to assure that needy families with
children obtain the education, training and employment that will help them avoid
long-term welfare dependency. To accomplish this, the JOBS program and related
provisions of the Family Support Act are intended to: (1) encourage, assist and require
applicants for and recipients of Aid to Families with Dependent Children (AFDC) to fulfill
their responsibilities to support their children by preparing for, accepting, and retaining
employment; (2) provide individuals with the opportunity to acquire the education and the
skills necessary to qualify for employment; (3) provide necessary support services so that
individuals can participate in JOBS. Additionally, states are required to provide
transitional child care and transitional medical assistance to enable individuals who have
completed JOBS to accept and retain employment; (4) promote coordination of services at
all levels of government in order to make a wide range of services available, especially
for individuals at risk of long-term welfare dependency; and (5) emphasize accountability
for both participants and service providers.

Where State resources permit, all AFDC recipients living in a subdivision covered by a
JOBS program and for whom the State IV-A (welfare) agency has guaranteed child care
(in accordance with the provisions of the child care laws and regulations) shall be required
to participate in JOBS unless the recipient is exempt from participation.

Federal regulations provide that a State JOBS program ~        include the following four
components: (1) educational activity (which shall include high school or high school
equivalency training; basic and remedial education that will provide a literacy level
equivalent to at least grade 8.9, and education in English proficiency); (2) job skills
training; (3) job readiness activities; and, (4) job development/job placement. States are
also required to include at least two of the following components: (1) on-the-job training,
(2) work supplementation, (3) community work experience, (4) group and individual job
search. Additionally, under certain conditions, a state’s JOBS program may include
referral of a participant to post secondary education. States are required to guarantee
child care, and provide transportation and other support services if the State agency
determines these services are necessary for an individual in the family to accept
employment, remain employed, or to participate in an education or training component.
This is our second report on this subject. We conducted a similar survey between
October 1991 and February 1992 and issued a report, ‘Participants Rate The JOBS


                                              1
Program” (OEI-06-90-O0150), in September 1993. In that survey we found a majority of
the surveyed participants gave the JOBS program high ratings. They believed the
program would help them get off welfare. Nevertheless, some respondents experienced
problems and voiced complaints about insufficient information on program activities and
services, not receiving needed support services, and unsatisfactory case manager services
and attitudes.


METHODOLOGY

We contacted the Administration for Children and Families (ACF) program managers and
solicited their input about sampling, methodological issues and the survey instrument that
we had refined. We incorporated their suggestions, and we made the following decisions
and took these actions regarding the methodology and sampling.

Between April and June 1994, we interviewed current and former JOBS participants in
person, using telephone interviews as a last resort.

We selected a purposive sample of four states Orezo n. Minnesota. Louisiana, and
Delaware. State-level officials in each of our four states selected an urban site and a d
w.	 Local-level officials at each site sent us a list of JOBS program participants who
completed the program (comdeter~), dropped out of the program (dropouts), or were
active in the program (active$. We drew independent random samples of completers,
dropouts and act.ives at each site. At every urban site, we wanted fifteen participants in
each status (for a total of 45). At every rural site, we wanted five participants in each
status (for a total of 15). We were able to complete a total of 183 interviews which
included 56 completers, 53 dropouts and 74 actives.

The findings from this study are purely descriptive and cannot be considered generalizable

to any other JOBS program sites either within the sampled states or within non-sampled

states. See Appendix A for more details.



Respondent Characteristics     (See Appendix B for a more detailed profile.)


�      Fifty-four percent were African American and 42 percent were white.

�      Forty-one percent had children age three or younger.

�      Sixty-seven percent had a high school diploma or more when they entered JOBS

       (45 percent had only a high school diploma).
�      Twenty-four percent were self-initiators (i.e., participants who were already in an
       education or training activity before they entered the JOBS program).
�	     Sixty-one percent worked in the two years prior to their participating in the JOBS
       program. Their employment appeared stable, lasting an average of 14 months out
       of the 24 month period about which we inquired. Occupations were primarily
       clerical and service work (e.g., secretaries, fast-food restaurant cooks, janitors,



                                              2

       housekeepers at hotels and cashiers). The average hourly wage from employment
       Was $5.76.
�      Before JOBS, only 17 percent had any type of job-related benefits; these were
       usually health or life insurance.
�	     At the time of the survey, 91 percent were receiving food stamps; 36 percent were
       receiving public housing assistance; and only 22 percent were receiving child
       support payments.

This report contains information on participants’ understa.ndkg of the program’s services
and requirements, positive and negative experiences in the program, and suggestions for
program improvement. This report reflects experiences with the JOBS program, as seen
from the unique perspective of the participants themselves.

We conducted our study in accordance with the Qua@ Standanis for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             3

                                       FINDINGS


MOST OF THE PARTICIPANTS SURVEYED GAVE HIGH NIARKS TO THE
OVERALL JOBS PROGRAM, ITS ACTIVITIES AND SUPPORT SERVICES.


A majority of the respondents (70 percent) gave the JOBS program high grades, as in
our prior survey, “Participants Rate The JOBS Program” (OH 06-90-00150).

We asked JOBS participants to give a grade of A, B, C, D or F to the JOBS program
overall. As shown in table 1, of the 177 individuals who respmlded to the question, 70
percent graded the program A or B.

Since mandatory participants do not have a choice about participating in JOBS, we were
especially interested in their attitudes towards the program. We found mandatory
participants appeared to have positive feelings about the program, with 70 percent giving
the program overall a grade of A or B. Further, 48 percent of the mandatory participants
said they were participating in the JOBS program not only because this was required, but
also to obtain education or training.

           Table 1:     JOBS Participants   Gave High Marks TO The JOBS Program
II                                                1
                      Factors Rated                               Grades

                                                     A      B      c        D    F     n
     JOBS Program Overall                          33%    37%    23%       5%   2%    177
     JOBS As A Means To                            43%    26%    17%       9%   5%    176
     Get Off Welfare
     Case Manager’s Efforts To Assist              44%    24%    18%       7%   7%    178
     Participants


Ninety-two percent of the respondents said they would recommend            the JOBS
program to a family member or friend.


A majority of the respondents         believed the JOBS program would help them get off
welfare.

As shown in table 1, 69 percent of the respondents believed the JOBS program could help
them get off welfare and graded the program’s efforts A or B. A majority of the
mandatory participants (68 percent) also believed the program could help them get off
welfare.
More than two-thirds of the respondents              gave high grades to their case managers.

As shown in table 1, 68 percent of the respondents graded the assistance provided by their
case managers as A or B. When we asked participants what, or who, helped them the
most to stay in or complete the JOBS program, 19 percent (26/138) cited the help
received from their JOBS case manager.


Welfare benefits were greatly reduced for JOBS completers                       who were workkg         when
surveyed.

At the time of our survey 75 percent (42/56) of the completers reported they were
currently employed and were either completely off AFDC (57 percent) or receiving a
reduced grant (18 percent). Twenty-three percent (13/56), despite prior employment,
were not working and had returned to AFDC. One completer was not working and was
in the process of reapplying for AFDC. Fifteen percent of the completers reported they
had not worked in the two years prior to participating in JOBS.

The post-JOBS employment of completers shows a sizeable gain in work-related
benefits, plus a modest increase in average hourly wages.

As shown in table 2, the number of completers who were employed following JOBS and
were receiving work-related benefits such as health and life insurance more than tripled,
increasing from 6 to 22. Median hourly wages of post-JOBS employment increased by 23
percent, rising from $5.00 to $6.16 per hour. The median number of hours worked per
week increased by two hours.

                        Table 2: JOBS Completers’           Employment          History

                                                                   Pre-JOBS                 Post-JOBS
                 EmploymentInformation                           Employment**              Employment
                                                                   (n = 35)                  (n = 56)
  Numberof ParticipantsWith:
                OneJob                                               16 (46%)                 31   (55%)
                   TWOJobs                                           11 (31%)                 23   (41%)
                    Three Jobs                                       6 (17%)                   1    (2%)
                    Four Jobs                                         2 (6%)                   1    (2%)

  Number of Hours Worked Per Week*                                      37                         39

  Number of Months Employed*                                            24                         10

  Hourly Wage*                                                        $5.00                     $6.16

  Participants With Work-Related Benefits                            6 (17%)                  22 (39%)
  Medians are shown because of the rmge of extreme values in this variable. For example, wages ranged from
$2.15 to $20 an hour.
** Pre-JOBS Employment refers to respondents’ work history two years prior to their participation in the JOBS
program.




                                                       5

The number of individuals working 40 hours a week increased 14 percent after
participating in JOBS. The most frequent types of OC.CUpafiOnS   in&lviduals obtained after
participating in JOBS were clerical, building maintenance, janitor-id, cashier, fast-food
 restaurant cook and nurse aide. Of those employed when swwqvd, about half did not
consider it likely that their employment would be permanent due to such reasons as the
job pays low wages, the work is temporary in nature, the job does not provide medical
benefits, and the participants’ desire to obtain more education.

JOBS program completers who were working, and not receiv~ng AFDC payments,
continued to rely on some government services:

       �       Food Stamps                                   ’78percent
       �       Transitional Medicaid                         90 percent
       �       Housing Assistance                            ’24percent
       �       Transitional Child Care                       39 percent

Dropouts were less educated, were more apt to have a history of welfare assistance,
had fewer self-initiated plans, and experienced more service problems than
completers.  Their ratings of the overall JC)BS program were noticeably lower than
those of completers.

In our sample, 56 respondents were JOBS program completers and 53 were dropouts.
Dropouts and completers had differences in background experiences which may have
affected their program participation outcomes. Thirty percent of the dropouts had a
history of welfare assistance (received AFDC as a child), versus 20 percent of the
completers, Thirty-four percent of the dropouts, as contrasted with 18 percent of the
completers, had less than a high school education. A higher proportion of completers (36
percent) than dropouts (15 percent) had self-initiated development plans. Further,
dropouts’ grades are noticeably lower than the grades given by completers as shown in
table 3.

Table 3: Comr)leters
             .       And Dro~outs
                            .     Gave Fairlv.- High Marks          TO    The    .lOBS Pro&ram

            Activities               A         B         c          D             F          n

  JOBS Program Overall
       Completers                  37.0%    33.3%     25.9%       1.9%          1.9%    54
       Dropouts                    18.0%    34.0%     30.0%       14.0%         4.0%    50

  JOBS As A Means To Get
  Off Welfare
        Completers                 50.9%     18.9%    18.9%      5.7%           5.6%    53
        Dropouts                   32.7%     16.3%    18.4%      20.4%          12.2%   49

  Case Manager’s Efforts To
  Assist Participants
         Completers                46.3%    20.4%     20.3%      7.4%           5.6%    54
         Dropouts                  38.0%    22.0%     18.0%      6.0%           16.0%   50




                                              6

Dropouts (54.9 percent), somewhat more than completers (50 pe~c,ent), reported not
receiving needed services. A higher proportion of dropouts (75 ptxcent) than completers
(35.7 percent) said their participation was limited because of not receiving needed
services.


Respondents generally gave high grades to those component activities in which they

participated and the support services they received.

(See Appendix C for details.)


Most respondents participated in the initial activities of the JOBS program: orientation,
assessment, and preparing the employment development plan. Orientation and assessment
can be a group or one-on-one activity. Participants were then assigned to other JOBS
program components as determined by the case manager and/or participant. Most
respondents were assigned to the following components: education, job skills
(vocational/technical school) training, job search and life skills training. The support
services most often used were child care, transitional child care, and transportation
assistance.

Orientation. Eighty-nine percent of respondents participated in a JOBS orientation.
About 3 of 4 participants graded the orientation session A or B for providing complete
information. Almost 80 percent graded the orientation worker A or B, with 75 percent
saying the explanation of program activities and services was clear and understandable.

Assessment. Eighty-seven percent of respondents participated in an assessment, most
often with their case managers. Eighty-one percent gave their assessment a grade of A or
B in regard to its completeness.

Emdovment Develo~ment Plan @DP). The EDP states the participant’s education,
training, work goals, and support services needed to complete the JOBS program. Of
those who participated in this activity, 89 percent said they helped the case manager
develop their EDP. Four of five said their EDP contained their own personal employment
and education goals. About 87 percent thought their EDP would help them achieve what
they wanted in the JOBS program. A little over two-thirds of the participants graded their
EDP A or B and 74 percent gave the case manager’s efforts an A or B.

Education Component. About 89 percent of the participants gave the education
component an A or a B in terms of helping them get a job. Similarly, over 90 percent
gave their instructor(s) an A or B.

Job Skills (Vocational/Technical School) Training Com~onent. About two-thirds of
participants in this component gave the training either an A or B, and an even higher
proportion (87 percent) gave the instructor(s) an A or a B.




                                             7
Job Search Com~onent. Eighty-five percent of the participants in this activity thought
their job search training was sufficient to enable them to find work. Sixty-seven percent
graded the component A or B. Eighty-two percent gave their instructors an A or a B.

Life Skills Training. About three of four participants in this component gave the training
an A or B. Eighty-six percent graded the instructors A or B.

Child-Care Assistance. About 60 percent of respondents received child-care assistance and
89 percent gave this service an A or B grade.

Transitional Child Care Assistance (TCCj. Almost 40 percent of JOBS completers
received TCC assistance and over two-thirds graded the service A or B.

Trans~ortation Assistance. Seventy-four percent of our survey participants received
transportation assistance and 79 percent graded the assistance A or B.


NEVERTHELESS, MANY RESPONDENTS SAID THEY DID NOT RECEIVE, OR
HAD PROBLEMS UTILIZING, NEEDED SERVICES AND EXPERIENCED WHAT
THEY VIEWED AS SERIOUS PARTICIPATION PROBLEMS.

Sixty-eight percent (125/ 183) of the respondents reported experiencing problems which
they claim affected their participation or successful completion of the JOBS program. Out
of the 145 people who answered this question, 48 percent reported there were times they
felt like dropping out of the program. Of those who gave a reason for considering
dropping out of JOBS (64/69), the most often cited problems were agency
workers/teachers (19 percent, 12/64), training (17 percent, 11/64), child care (16 percent,
10/64) and lack of available jobs (12 percent, 8/64). Fifty-one percent of the respondents
surveyed reported there were services they needed but did not receive. Thirty-two percent
(57/178) of the respondents were not satisfied with their case managers. They reported
case managers were condescending, not available, and did not provide needed services.
Of respondents grading the orientation “C” or below, 31 of 39 reported not receiving
sufficient information about the program activities and services.


In the aggregate, over half of all respondents   cited needed activities and support
services which they did not receive.

Fifty-one percent (92/ 181) of respondents reported there were certain services they needed
but did not receive. The services mentioned most often were transportation (34 percent),
child care (21 percent), education (19 percent) and job skills training (14 percent). Of the
28 completers who reported not receiving needed services, 7 said they did not receive
transitional child care (TCC) and 6 said they did not receive transitional Medicaid. These
are services essential to gain or maintain employment. Further, states are required to
provide payment or reimbursement for child care, transportation, TCC and transitional
Medicaid services and other work-related expenses, including support services, that the
States determine are necessary to enable an individual to participate in the JOBS program
or maintain employment. Table 4 shows the services and activities most respondents said
they needed but did not receive.


                                             8
   Table 4: Percent And Number Of Respondents Reporting Nut Receiving Needed
                              Services Or Activities .——-

                                                                             Not Receiving
                Service or Activities Not Received                              (n=92)
                                                                     .-
                                                                          _Percent    Number
                                                    ——--—..
  Transportation
                                                           33.7         31
                                                     ———...
  Car Repair
                                                               13.0         12
  Child Care
                                                               20.7         19
  Transitional Child Care
                                                  7.6          7
                                                        —-—.. -
  Education
                                                                18.5         17
                                                              .—..
  Vocational/Technical Training
                                            14.1         13
                                                               —
  Dental
                                                                   13.0         12
  Transitional Medicaid
                                                    6.5          6
  Financial Assistance with tuition, books, uniforms, etc.                  8.7          8
  Job Search/Help with finding employment                                   7.6          7


Respondents gave multiple reasons for Q receiving the services they needed. As table 5
shows, the most mentioned reason was the case manager refused or was disinterested.

               Table 5: Reasons Why Services And Training Not Provided

            Reported Reason Service(s) Not Provided                           Not Receiving
                                                                                (n=92)

                                                                          Percent     Number
 Case Manager Disinterest *                                                 42.4         39
 Agency Did Not Provide                                                     26.1         24
 Respondent Did Not Know About or Did Not Ask For The                       21.7         20
 Service

 Service Not Available In Community                                         20.7         19

 State Did Not Provide                                                      13.0         12
      - Also includes case manager refusals.




                                               9

Approximately one out of every five participants     cited problems in utilizing each of
the following key services: transportation, child   care and joh skills training.
Problems cited included access barriers, services    not available when needed, break-
down in services, transition problems, difficulty   paying for services and inadequate
quality of training.

Trans~ortation. About 19 percent (25/135) of those who used transportation assistance
said they had problems obtaining the service. Most of these 25 participants explained
there was a lack of available transportation when they needed it and that they had
problems paying for it.

Child Care. Twenty-two percent (24/ 109) of those participants who received child care
assistance said they had problems obtaining or keeping child care. Most of those offering
an explanation told us they had difficulties paying for services or that there was a lack of
available child care at the time they needed it. Three participants in the job skills
(vocational/technical school) component had problems obtaining child care at the times
their courses were offered, particularly in the evening. Additionally, 24 percent of the 71
respondents in the jobs skills component and 11 percent (8/71) in the education component
said they had breakdowns in their child-care arrangements.

Three respondents said they had problems changing from AFDC child care to transitional
child care (TCC) assistance. Nine completers told us they had problems paying for their
part of TCC. This was especially the case for six mandatory participants. One completer
reported, “I quit working. I could not afford to pay $190 a month for child care. ”

Jobs Skills Training.  About 23 percent (16/71) of the participants taking
vocational/technical training said they experienced problems in the training they needed.
Of these, 5 had problems with the quality of the courses and/or the instruction, saying
they did not get what they wanted out of the training and that the training did not prepare
them for the real world. Four had problems paying the tuition.

We found some differences    in problems experienced    by participants   based on race.

African Americans generally were satisfied with JOBS and gave the overall program high
grades. A higher proportion of African Americans (24 percent, 11/45) than whites (19
percent, 8/43) said they needed but did not receive child care. Of the 27 program
completers who reported they did not receive needed services, 14 were African American
and 13 were white. Forty-three percent (6/14) of the African Americans and 8 percent
(1/ 13) of the whites said they needed but did not receive transitional child care. In
addition, 36 percent (5/14) of the African Americans and eight percent of the whites said
they needed but did not receive transitional Medicaid.

We also found differences in the reasons participants gave for not receiving needed
services. A higher proportion of African Americans (28 percent, 13/45) than whites (12
percent, 5/43) said that services were not received because the worker refused. More
whites (23 percent, 10/43) than African-Americans (nine percent, 8/45) reported needed


                                             10
services were not received because the services were not available. Eighteen percent
(8/45) of the African Americans but only seven percent (3/42) of Ihe whites did not know
about the availability of the services they needed, Related to this finding, two percent
(1/45) of the African Americans but 19 percent (8/43) of the whites said they did not ask
for the service.

While most participants said they helped the case manager to develop their
employment development plan, some said they did not help and that their personal
goals were not included.

Eighty-nine percent (126/ 142) of the respondents with an employment development plan
said they helped to develop their plan, and 82 percent (1 16/142) said the plan contained
their goals. Although states are required by Federal regulations to develop the EDP in
consultation with the participant (including a participant in a self-initiated activity) and to
the maximum extent possible include the preferences of the participants in their EDP, 11
percent reported they did not help to develop their plan and 18 percent said their goals
were not included in their plan. Of those respondents grading their employment
development plan C, D or F, 68 percent (30/44) reported they were told by the case
manager to set different goals. For example, they were required to seek employment at
their present skill level rather than participate in education or job skills training. Other
respondents reported they wanted immediate employment but were required to participate
in education or training.

About one-third (57/178) of the respondents graded their case manager C, D or F and
were not satisfied with the case managers’ assistance and attitudes.

Respondents experiencing problems reported case managers were not helpful and
sometimes not available (40 percent, 23/57), condescending (39 percent, 22/57), and
sometimes refused to provide needed services (20 percent, 11/57). Even some
participants grading the case managers A and B reported case managers were not helpful.
Forty-two percent (39/92) of the respondents who said they did not receive needed
services attributed this to either the manager’s lack of interest or refusal to provide the
service. Additionally, 11 percent reported case managers caused them the most problems
with participating in the JOBS program.

About one-fourth of those receiving an orientation graded it low due to unclear or
insufficient information; eleven percent said they received no orientation at all.

Twenty participants reported they did not participate in an orientation. Of those who
participated in an orientation 24 percent (39/163) graded it C or below. Twenty-five
percent (41 /163) of the respondents said the information provided was unclear. However,
the major criticism was that insufficient program information was provided, with 24 (62
percent) of the 39 respondents grading the orientation C or below stating this view.




                                               11

Eighty percent (146/183) of the respondents suggested needed JOBS program
improvements to achieve self-suftlciency and improve support services.

�	    Twenty-six percent (38/146) suggested placing more emphasis on education and
      training to prepare participants for a career which would increase their earning
      capacity above the minimum-wage level. Some believed minimum wages would
      force them to remain on welfare or to return to the public assistance rolls because
      their wages would not be sufficient to replace lost medical, AFDC, and/or Food
      Stamp benefits.

�	    Twenty percent (29/ 146) suggested identifying and linking participants with good
      paying jobs in the community.

�	    Five percent (7/146) suggested allowing participants a trial work period and let
      them receive their first pay check before terminating benefits.

�	    Fourteen percent (20/ 146) suggested providing and extending beyond a year
      transitional services (child care, medical) to participants whose AFDC benefits will
      be terminated due to earned income.

�	    Thirty-six percent (52/146) suggested improving key support services, such as
      child care and transportation. This would include assisting participants to find
      quality, affordable child care and transportation services. Some respondents
      suggested child care should be provided during all phases of the program (e. g.,
      orientation, assessment, job search training, etc. ).




                                            12

CONCLUSIONS

This survey was conducted to gain some insight into the ideas and opinions of those
individuals participating in the JOBS program. We believe this information could be
useful to program managers and line workers in their work with participants.

Many participants are attracted to the JOBS program because of the promise of obtaining
an education or skills that will enable them to obtain a good paying job and get off
welfare. Most participants rated the overall JOBS program high and would recommend
the program to friends and relatives.

Nevertheless, many participants experienced problems in going through the program.
Many participants did not receive services they needed, and some felt like dropping out.
These are problems which need to be addressed. Availability and easy access to key
support services, for example child care, are critical to an individuals successful
completion of JOBS and, ultimately, to the success of the program.

The experiences of JOBS completers offer hopeful signs of the program’s promise to help
individuals move from dependency to work. Seventy-five percent of the completers were
working and were either completely off AFDC (57 percent) or were receiving a reduced
grant (18 percent). The median hourly wages of completers increased 23 percent and the
number of participants with work-related benefits tripled. However, many completers
continue to receive government benefits, such as food stamps and Medicaid. Further,
many completers noted that low-paying jobs available to them will not be enough to
enable them to become self-sufficient over the long term.

An obvious key to JOBS program success is the availability of good paying jobs in the
community. Strengthening linkages between the program and job sources, including job
development and marketing of JOBS participants, will be a major continuing challenge.

The roles played by JOBS case managers and teachers/trainers seem to be vital ingredients
of a successful program. This supports the need for continuing efforts to strengthen the
training of these workers to provide positive support and assistance to participants.

We believe interviews of JOBS program participants can provide useful insights into the
problems and successes of the program. We would encourage the Administration for
Children and Families to continue such direct participant feedback activities through future
surveys at other states and sites.

AGENCY     COMMENTS

We reviewed our report at an exit conference with staff from the Administration For
Children and Families. They provided informal comments and requested additional
information. Some of their comments have been incorporated in this report; some of the
additional information requested will be addressed in supplemental reports. Since this
report contains no recommendations, it is being issued directly in final.



                                             13

                              APPENDIX                A
                                                     —-—.
METHODOLOGY

For this second JOBS participants’ survey, much of the background work and relevant
literature review had been accomplished in the first survey, ‘Participants Rate the JOBS
Program” (OEI-06-90-00150, September 1993). We contacted the Administration for
Children and Families (ACF) program managers and rdicite$ their input about sampling,
methodological issues and the survey instrument that we had refined. We incorporated
their suggestions, and we made the following decisions and took these actions regarding
the methodology and sampling:

       �      Between April and June 1994, we interviewed a.nmmt and former JOBS
              participants in person, using telephone interviews as a last resort.

       �	     We pretested the structured interview guide at a local site in Dallas, Texas,
              and made appropriate changes and corrections to the interview guide. Like
              the previous study’s guide, this guide included both closed-ended and open-
              ended questions.

       �	     We selected a purposive sample of four states from a list of twelve ACF
              program managers gave to us. The twelve states were geographically
              diverse, a mix of smaller and larger states, and different program types
              (e.g., human capital development vs. intensive job search). The four states
              we selected were: Oregon, Minnesota, Louisiana, and New Jersey. The
              state of New Jersey withdrew from the study at the last moment, so we
              replaced it with Delaware.

       �	     We briefed state-level officials in each of our four states about the study
              and asked them to select an ~rban si~ and a rural site (within an hour’s
              drive of the urban site) for the study. We asked officials not to choose the
              best or the worst programs. They selected the following sites (urban site
              followed by rural site): Eugene and Cottage Grove, Oregon; Minneapolis
              and Chisago, Minnesota; New Orleans and Hahnville (St. Charles Parish),
              Louisiana; and, Wilmington and Georgetown, Delaware.

       �	    We then contacted local-level officials at each site and asked them to send
             us a list of those who had participated in JOBS sometime during 1993,
             indicating also the status of each participant in terms of completing the
             program (comdeter$, dropping out of the program (j!ropout~), or still
             currently active in the program (jctive$).

      �	     To maximize our learning from participants who might have different
             experiences in the JOBS program, we drew indemmdent random samdes of
             co mr)leters. droDouts and actives at each site. At every urban site, we
             wanted to end up with fifteen participants in each status (for a total of 45),


                                           A -1

             so we oversampled by two, sometimes three, times the number we wanted.
             At every rural site, we wanted to interview ai least tive participants in each
             status (for a total of 15), so we oversampled by three times the desired
             number. Based on the lists of randomly-selected participants we sent to the
             sites, local-level managers and case managers tek@oned participants and
             set up a schedule of face-to-face interviews for us. We interviewed
             participants from April 1994 to June 1994. Also, at every site we talked
             with at least one administrator and supervisor about activities and services
             available and program operations to get a “feel” for the JOBS program
             there.

       �	    We planned to obtain 240 face-to-face interviews, 60 per state. With
             oversampling and diligent effort, we were able to complete 183 interviews
             76 percent of our goal. This included 56 participants who had completed
             their participation in the JOBS program, 74 were currently active and at the
             time 53 had dropped out. Telephone interviews comprised about ten
             percent of the sample and were conducted when participants did not appear
             for the in-person interview.

       �	     The findings from this study are purely descriptive and cannot be
              considered generalizable to any other JOBS program sites either within the
              sampled states or within non-sampled states.

We conducted our study in accordance with the Qnality Standurds for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                           A -2

                                                  APPENDIX                 B
                                 PROFILE OF SURVEY RESPONDENTS
                                                         (N = 183’I

                                   VARIABLES                                                      %       average
                                                                           .—
Q AGE:               averagefor   all participants                                                        0.0 years
                     for mandatory participants                                                  68.8     l.4 years
                     for volunteer participants                                                  31.1     7.0 years
                                                                  ———           —..
.        TEENAGE      PARENTS             (19 years or younger)                                  5.5

.        GENDER:      females                                                         i 66       90.7
                                                                      .—
.        RACE/ETHNICITY:                 African Americans                            99         54.1
                                         Whites                                       ?7         42.1

�        MARITAL       STATUS: single, never married                                  106        57.9
                     currently married                                                X3         12.6
                     separatedldivorced                                               52         28.4

�       CHILDREN:   average # on AFDC grant per participant                                               .9 children
                parents with children age 3 and under                                 ’75        41.0

�       RESIDENCE:               urban                                                137        74.9

�       EDUCATION - Before JOBS: average years completed                                                  1.8 years
           enrolled in training/education (self-initiators)                           43         23.5
           less than a high school education                                          59         32.2
           high school diploma or equivalent                                          82         44.8
           some cone e-level course-w
                        - .- .-x �OU
                        - . . . . . .Oa 188
                                          Iil
                                .. ...   .oaloo    tto

                     -“”[. II. II soal!lo$10]1        !

                                                                                                 II! I
                                   -..,0-      ,,0,1{
                        o
                        .                -. -,,-..,                                   11
             completed a college degree or more                                        4          2.1

�       EDUCATION- During/AfterJOBS: averageyearscompleted                                                2.2 years
           lessthana highschooleducation                                              42         23.0
             high school diploma or equivalent                                        85         46.4
             some college-level course-work                                           48         26.3
             completed a college degree or more                                        8          4.3

.       EMPLOYMENT      - Before JOBS
            worked in two-year period before JOBS                                     111        60.7

                       ..   -                                                                    QO’J
                                                                                       11
             MOLK~    III wO-~SSL         hSL!Oq    PQ[oL~IOB2
                                                                                                 ~..a

                                                                                       -..       sse-a
                                                                                                 ---*
                                                                                       ==        ~.
                                                                                                  --.>
                                                                                                    ._ . ..   ~. -------
                                                                                         .==
                                                                                         -- -.    ,---        - .. . -
                                                                                                                     . ..—.
                                                                                           i!    )“:::’”
                                                                                                   12.;
                       separatedldivorced

    �     CHILDREN: average# on          AFDC grant per participant                    +
                                                                                                          1.9 childrel
                      parents with children age 3 and under




                                                                                       T
                                                                                           ’75     41.0
    �     RESIDENCE:               urban                                                137        74.9
    �     EDUCATION- BeforeJOBS: averageyearscomplet~                                                     11.8 years
             enrolledin training(education
                                         (self-initiators)                              43        23.5
             less thana highschooleducation                                             59        32.2
            highschooldiplomaor equivalent	                                             82        44 R
                     ..
                        VARIABLES                                      n     %      average
. EMPLOYMENT- After JOBS
        had employment or currently working                           91    49.7
        average # of months worked                                                 6.9 months
        average # of hours worked per week                                         31.0 hours
        average hourly wage                                                        $6.45
        work-related benefits                                         27    29.7

�   WELFARE HISTORY/C~NT                   STATUS
       received AFDC assistance as a child                            51    27.9
       average # of years on welfare                                               5.8 years
       received AFDC for 36 of the preceding 60 months                 89   48.6
       currently receiving AFDC                                       146   79.8
       currently receiving Unemployed Parents assistance               12    6.6
       currently receiving child support payments                      41   22.4
       currently receiving public housing assistance                  65    35.5
       currently receiving food stamps                                166   90.7
       while in JOBS, one or more benefits were terminated             12    6.6
       while in JOBS, benefits were reduced (sanction status)         31    16.9
       custodial parents under the age of 24 who, at the time of      29    15.8
              application, were not enrolled in high school and had
              little or no work experience
       youngest child ineligible for AFDC within 2 years               1    0.5




                                              B-2
                                         APPENDIX —. C


             Participants’   Grades For Activities/Servic.~,            Teachers and Case Managers
                                                          ~_2——..——.




  Activities/Services              A         B            c               :0      F      No                 n
                                                                                         Response
                                                                       —.——
  Orientation                   30.7%      43.6%      17.2%              4,9%    1.8%        1,8%           163
  Worker                        46.6%      32.5%      10.4’%             7.4%    0.6%        2.5%

  Assessment*                   43.4%      37.1%      13.2%              4.4!%   1.3%        0.6%           159
                                                                              -—
 Employment                                                                                                 142
  Development       Plan        38.0%      30.3%      15.5%              9.,9%   5.6%        0.7%
 Case Manager                   48.6%      25.3%      12.7%              8.4%    4.2%        0.8%
 Education                      54.9%      33.8%       8.5%              1.4%    0.0%        1.4%           71
 Teacher                        63.8%      27.7%       2.1%              0.0%    4.2%        2.2%

 Jobs SkiUs Training**          45.1%      22.5%      18.3%              4.2%    4.2%        5.7%           71
 Teacher                        54.9%      32.4%       8.4%              2.8%    0.0%        1.5%
 Job Search Training            37.7%      29.5%      19.7%              4.9%    4.8%        3.4%           61
 Teacher                        50.8%      31.1%       6.5%              4.9%    3.3%        3.4%
 Life Skills Training           41.9%      32.5%      18.6%              0.0%    2.3%        4.7%           43
 Teacher                        62.8%      23.3%       4.6%              2.3%    2.3%        4.7%
 Child Care*                    67.0%     22.0%       9.2%               0.9%    0.9%        0.0%           109
 Transitional                                                                                               22
  Child Care                    40.9%     27.3%      22.7%               4.5%    0.9%        3.7%
 Case Manager                   59.1 %    18.2%      13.6%               4.5%    0.0%        4.6%
 Transportation*                60.7%      17.8%      13.3%              3.7%    1.5%        3.0%           135

* A case manager grade was not obtained for this activity.

**	 Jobs Skills Training = Training received from a vocationalkchnical                school or community
    college.




                                                    c-1
